No. 19-

tbe
'upreme Court of tbe niteb iptateo
SANDRA G. HALE,
Petitioner,
V.

UNITED STATES OF AMERICA;
MICHAEL DEBAKEY MEDICAL CENTER
(VA HOSPITAL); CHRISTOPHER R. SANDLES;
ROBERT MCDONALD; PAUL WENZSLAWSH, PA;
DOCTOR JOHN MA, M.D.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
PETITION FOR WRIT OF CERTIORARI

SANDRA G. HALE
PETITIONER PRO SE
2318 AUTUMN SPRINGS LANE
SPRING, TX 77373
(281) 203-8752
SANDRAINDAYTON@YAHOO.COM

OCTOBER 28, 2019
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

RECEIVED
NOV -4 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

1

QUESTIONS PRESENTED
Petitioner and veteran Ms. Hale, sued under 28
U.S.C. § 1346, Federal Tort Claims Act for injuries
caused by Veteran's Administration x-ray technician
Edward Boulay. The Texas Continuing Tort Doctrine
was applied to accrual and discovery date of medical
injuries and found not to affect the statute of limitations for filing a FTCA administrative claim. The claims
were dismissed with prejudice under Fed. R. Civ. Proc.
12(b)(6). The Fifth Circuit Court of Appeals affirmed.
Whether the continuing tort doctrine was misapplied to the statute of limitations set under the
Federal Tort Claims Act.
Whether continuing medical torts preclude
dismissal with prejudice under Rule 12(b)(6).
Whether an x-ray technician's misuse of
hospital sandbags is a health care liability claim requiring an expert physician report.
Whether an expert nurse can opine concerning
medical records.
Whether Respondent United State's answer to
Petitioner's Amended complaint was untimely.

11

PARTIES TO THE PETITION
Petitioner
Sandra G. Hale
Respondents
United States of America
Michael Debakey Medical Center (VA Hospital)
Christopher R. Sandles
Robert McDonald
Paul Wenzslawsh, Phyisican's Assistant
Doctor John Ma, M.D.
Edward Boulay—VA x-ray technician
Rebecca Bowles—Edward Boulay's supervisor

111

LIST OF PROCEEDINGS
United States Court of Appeals for the Fifth Circuit
No. 18-20071
Sandra G. Hale, PlaintiffAppellant, v.
United States of America; Michael Debakey Medical
Center (VA Hospital); Christopher R. Sandles;
Robert Mcdonald; Paul Wenzslawsh, Pa;
Doctor John Ma, M.D., Defendants-Appellees.
Decision Date: June 28, 2019
Rehearing Denial Date: July 29, 2019

United States District Court
for the Southern District of Texas Houston Division
Civil Action No. 4:17-0226
Sandra G. Hale, Plaintiff; v.
United States of America, Et Al., Defendants.
Date of Summary Dismissal: August 18, 2017

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED
PARTIES TO THE PETITION

ii

LIST OF PROCEEDINGS

iii

TABLE OF AUTHORITIES

vi

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT

9

The Fifth Circuit Court of Appeals Has
Decided an Important Federal Question
That Has Not Been, but Should Be, Settled
by This Court

9

The Decision Below Conflicts and Undermines the Legitimacy, Reliability and
Stability of Judicial Processes and Has So
Far Departed from the Accepted and Usual
Course of Judicial Proceedings, and Sanctioned Such a Departure by a Lower Court,
as to Call for an Exercise of This Court's
Supervisory Power
13
CONCLUSION

14

TABLE OF CONTENTS — Continued
Page

APPENDIX TABLE OF CONTENTS
Opinion of the United States Court of Appeals for
the Fifth Circuit (June 28, 2019)
la
Memorandum and Order of the United States
District Court for the Southern District of
Texas Houston Division (August 18, 2017)
4a
Order of the United States Court of Appeals for the
Fifth Circuit Denying Petition for Rehearing
(July 29, 2019)
25a

vi
TABLE OF AUTHORITIES
Page
CASES
A.L. T. Corp. v. Small Business Admin.,
801 F.2d. 1451 (5th Cir. 1986)

11

Adler v. Beverly Hills Hosp.,
594 S.W.2d 153 (Tex. App.—Dallas 1980)

10

Conley v. Gibson,
355 U.S. 41 (1957)

13

Creditwatch, Inc. v. Jackson,
157 S.W.3d 814 (Tex. 2005)

12

Gen. Universal Sys., Inc. v. HAL, Inc.,
500 F.3d 444 (5th Cir. 2007)

12

In re: FEMA Trailer Formaldehyde Prods.
Liab. Litig., 668 F.3d. 281 (5th Cir. 2012)
Markwardt v. Tex. Indus., Inc.,
325 S.W.3d 876, 894
(Tex. App.—Houston [14th Dist.] 2010)

6

10, 12

McFarland v. Grounds,
No. 12-50881, 2013 WL 657767, 1
(5th Cir. Feb. 22, 2013)

12

Plough v. Reynolds,
No. 13-03-741-CV, 2006 WL 328120
(Tex. App.—Corpus Christi-Edinburg 2006)

10

S V. v. R. V.,
933 S.W.2d 1 (Tex. 1996)

11

TIG Ins. Co. v. Aon Re, Inc.,
521 F.3d 351 (5th Cir. 2008)

11

vii
TABLE OF AUTHORITIES—Continued
Page
United States v. Kwai Fun Wong,
U.S.
, 135 S.Ct. 1628 (2015)

6

Upjohn Co. v. Freeman,
885 S.W.2d 538 (Tex. App.—Dallas 1994)

12

Zurita v. Lombana,
322 S.W.3d 463
(Tex. App.—Houston [14th Dist.] 2010)

10

CONSTITUTIONAL PROVISIONS
U.S. Const. amend. 14, § 1

2, 13

STATUTES
28 U.S.C. § 1254(1)

2

28 U.S.C. § 1346
28 U.S.C. § 1346(b)(1)

4

28 U.S.C. § 2401(b)

5, 6, 11

28 U.S.C. § 2675(a)

11

28 U.S.C. § 2679(d)(5)

11

Tex. Civ. Prac. & Rem. Code Ann. § 16.003(a)

11

Tex. Civ. Prac. & Rem. Code Ann. § 74.001

2

Tex. Civ. Prac. & Rem. Code Ann. § 74.002

4

Tex. Civ. Prac. & Rem. Code Ann. § 74.004

4

viii
TABLE OF AUTHORITIES—Continued
Page
JUDICIAL RULES
Fed. R. Civ. P. 8

11

Fed. R. Civ. P. 12(6)(b)

1

Fed. R. Civ. P. 12(b)(1)

6

Fed. R. Civ. P. 12(b)(6)

i, 9, 13

Fed. R. Civ. P. 13

11

Fed. R. Civ. P. 14

11

Fed. R. Civ. P. 56(c)

6

1

PETITION FOR WRIT OF CERTIORARI
Sandra Hale, a veteran petitioning pro se, respectfully prays that a Writ of Certiorari issue to review the
June 28, 2019 judgment of the United States Court of
Appeals for the Fifth Circuit affirming the granting of
Respondent United States' Rule 12(6)(b) Motion on
the pleadings and dismissing FTCA claims with prejudice.

OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Fifth Circuit Court of Appeals appears at App. la
to this petition. The opinion of the United States
District Court for the Southern District of Texas,
Houston Division, dated August 18, 2017 is included
at App.4a.

JURISDICTION
The decision by the Fifth Circuit Court of Appeals
denying Ms. Hale's direct appeal is reported as Sandra
Hale vs. USA, et al, No. 18-20071 (June 28, 2019)
unpublished and a copy is attached at App. la. The
Fifth Circuit Court of Appeals denied Ms. Hale's
Petition for Rehearing on July 29, 2019; a copy is
attached at App.25a. The jurisdiction of this Court is

2

invoked under 28 U.S.C. § 1254(1). This petition is
timely filed.

-101STATUTORY PROVISIONS INVOLVED
U.S. Const. amend. 14, § 1 (1789, rev. 1992)
"All persons born or naturalized in the United
States and subject to the jurisdiction thereof are
citizens of the United States and of the State
wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor
shall any State deprive any person of the life,
liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the
equal protection of the laws."
Tex. Civ. Prac. & Rem. Code § 74.001
(10) "Health care" means any act or treatment
performed or furnished, or that should have been
performed or furnished, by any health care provider for, to, or on behalf of a patient during the
medical care, treatment, or confinement."
(12)(A) "Health care provider means any person,
partnership, professional association, corporation,
facility, or institution duly licensed, certified,
registered, or chartered by the State of Texas to
provide health care, including:(i) a registered
nurse; (ii) a dentist;(iii) a podiatrist; (iv) a
pharmacist; (v) a chiropractor; (vi) an optometrist;
(vii) a health care institution; or (viii) a health care

3

collaborative certified under Chapter 848, Insurance Code. (B) The term includes: (0 an officer,
director, shareholder, member, partner, manager,
owner, or affiliate of a health care provider or
physician; and (ii) an employee, independent
contractor, or agent of a health care provider or
physician acting in the course and scope of the
employment or contractual relationship."
13) "Health care liability claim means a cause of
action against a health care provider or physician
for treatment, lack of treatment, or other claimed
departure from accepted standards of medical care,
or health care, or safety or professional or administrative services directly related to health care,
which proximately results in injury to or death of
a claimant, whether the claimant's claim or cause
of action sounds in tort or contract."
(19) "Medical care means any act defined as practicing medicine under Section 151.002, Occupations
Code, performed or furnished, or which should
have been performed, by one licensed to practice
medicine in this state for, to, or on behalf of a
patient during the patient's care, treatment, or
confinement."
(24) "Professional or administrative services
means those duties or services that a physician or
health care provider is required to provide as a
condition of maintaining the physician's or health
care provider's license, accreditation status, or
certification to participate in state or federal health
care programs."
25(b) "Any legal term or word of art used in this
chapter, not otherwise defined in this chapter, shall

4

have such meaning as is consistent with the
common law."
Tex. Civ. Prac. and Rem. Code § 74.002
Conflict with other law and rules of Civil Procedure
"(a) In the event of a conflict between this chapter
and another law, including a rule of procedure or
evidence or court rule, this chapter controls to the
extent of the conflict. (b) Notwithstanding Subsection (a), in the event of a conflict between this
chapter and Section 101.023, 102.003, or 108.002,
those sections of this code control to the extent of
the conflict. (c)The district courts and statutory
county courts in a county may not adopt local rules
in conflict with this chapter."
Tex. Civ. Prac. and Rem. Code § 74.004
Excception from certain laws. "(a) Notwithstanding
any other law, Sections 17.41-17.63, Business &
Commerce Code, do not apply to physicians or
health care providers with respect to claims for
damages for personal injury or death resulting, or
alleged to have resulted, from negligence on the
part of any physician or health care provider."
28 U.S.C. § 1346(b)(1)
"Subject to the provisions of chapter 171 of this
title, the district courts, together with the United
States District Court for the District of the Canal
Zone and the District Court of the Virgin Islands,
shall have exclusive jurisdiction of civil actions on
claims against the United States, for money
damages, accruing on and after January 1, 1945,
for injury or loss of property, or personal injury or
death caused by the negligent or wrongful act or

5

omission of any employee of the Government while
acting within the scope of his office or employment,
under circumstances where the United States, if a
private person, would be liable to the claimant in
accordance with the law of the place where the act
or omission occurred."
28 U.S.C. § 2401(b)
"A tort claim against the United States shall be
forever barred unless it is presented in writing to
the appropriate Federal agency within two years
after such claim accrues or unless action is begun
within six months after the date of mailing, by
certified or registered mail, of notice of final denial
of the claim by the agency to which it was
presented."

STATEMENT OF THE CASE
Petitioner, veteran and retired nurse, Sandra Hale,
filed her original complaint on 01/07/2017 (ROA.16)
after discovery of her left torn rotator cuff diagnosed
02/10/2015 (ROA.502) and being notified of it on
02/11/2015 (ROA.510) and after her right rotator cuff
was diagnosed as being torn on 05/03.2016 (ROA.277).
Ms. Hale's administrative tort claim was denied
01/11/2017 (ROA.106). Ms. Hale's original complaint
named an "unknown x-ray technician" and his "unknown supervisor" (ROA.16). After x-ray technician
Edward Boulay and his supervisor appeared in district court via sworn affidavits (ROA.99, 102) Ms. Hale
amended her complaint on 05/29/2017 to legally

6

identify and agree that Edward Boulay was the unknown x-ray technician (ROA.217), linking Rebecca
Bowles as his supervisor. The district court ruled Ms.
Hale knew her rotator cuff was torn when she
experienced "pain" and "suspected" injury on March
18, 2014, the date of the sandbag x-ray (ROA.259-60),
thus finding Ms. Hale had more medical knowledge
than two licensed physicians specializing in detection
of injury via Radiology, one interpreting the shoulder
x-ray and the other interpreting a neck CT scan on
March 18, 2014. Respondent United States (USA)
agrees Ms. Hale was not under medical care or treatment at the time of the sandbag x-ray and CT scan
(ROA.120, 6th defense) (ROA.217), however, March
18, 2014, placed Ms. Hale's administrative claim outside
the two year statutory limits of 28 U.S.C. § 2401(b).
On April 11, 2017. Respondent USA filed a motion
to dismiss or for summary judgment under Rule
12(b)(1) and Rule 56(c) ) (ROA. 91-92) and cited FEMA
Trailer Formaldehyde Prods. Liab. Litig., 668 F.3d.
281, 287 (5th Cir. 2012) to dismiss Edward Boulay,
Rebecca Bowles and claims against them with prejudice as untimely under 28 U.S.C. § 2401(b) (ROA.93).
Respondent USA argues the only equitable tolling for
FTCA statutory time limitations is under United
States v. Kwai Fun Wong,
U.S. , 135 S.Ct. 1628
(2015). (ROA.95). Ms. Hale opposed and argued under
the "Texas Continuing Tort Doetrind' (ROA.142). The
pleading evidence shows that the sandbag injury was
first diagnosed 09/15/2014 by VA Dr. John Ma as
"shoulder pain" from a strained cervical muscle and
inflamed rotator cuff tendon. (ROA.840). The district
court found Ms. Hale's accrual date on 03/18/2014
because she suspected a tendon or muscle injury

7

(ROA.262, footnote 6). The Fifth Circuit has consistently ruled that suspicion of injury is not knowledge
of injury and Ms. Hale's injuries were first diagnosed
on September 15, 2014 by Dr. John Ma. (ROA.259-60).
However, during this physical examination, Dr. Ma
forcibly manipulated muscles and tendons that he had
just diagnosed as being strained and inflamed. An x-ray
the same day was negative and physician assistant Paul
Wenzlawsh unlawfully changed a doctor's diagnosis to
his lay diagnosis of "muscle spasm". (ROA.191-93).
Ms. Hale sought a second opinion outside the VA
which changed the diagnosis to "adhesive capsulitis";
(ROA.1853); Ms. Hale returned to the VA and demanded
an ultrasound and on 02/10/2015, this ultrasound
revealed a left "torn rotator cuff'.
Now, Ms. Hale had both "torn rotator cuff' and
"adhesive capsulitis" (ROA.235); but when Ms. Hale
demanded surgery, a surgical consult was done on
03/04/2015 and the diagnosis was changed back to
"muscle spasm" by Wenzlawsh (ROA.191-96). Physician assistants are prohibited by statute to diagnose
or change a physician's diagnosis, and this unlawful
act prevented discovery and treatment of Ms. Hale's true
injuries confirmed by radiological tests. On 10/12/2015
x-ray revealed levoscoliosis of the throacolumbar spines
(ROA.236). On 05/03/2016 an ultrasound revealed the
left bicep muscle had scar tissue from an earlier injury
and the right shoulder rotator cuff was mildly torn
1 The thorax, (thoracic) the part of the human body between the
neck and abdomen, enclosed by the ribs and containing the heart
and lungs, was being pulled and twisted (scoliosis) to the left
(levo) toward the left torn rotator cuff. Tabers Medical
Dictionary, 2018 Ed.

8

(ROA.237-39). These injuries remained untreated and
a subsequent MRI on 08/07/2017 found the tendon
was not only severely torn, but had dislocated into the
space occupied by another tendon (ROA.442). Ms.
Hale's thoracic scoliosis remained untreated and on
08/11/2017 an MRI revealed all her lumbar discs were
bulging2 (ROA.384-87). All Ms. Hale's injuries were
not a result of the sandbags on March 18, 2014; nor
was there only one wrongful act involved. Respondent
USA, due to a series of repetitive misdiagnosis, arbitrary changes of diagnosis and failure to timely utilize
appropriate diagnostic tests, deferred discovery of Ms.
Hale's true injuries.
And, it's a fact that Ms. Hale would have never
found any of these injuries had she not sought second
medical opinions outside of the VA and returned to
demand the correct diagnostic tests be performed to
discover these injuries. The issue of whether the Texas
Continuing Tort Act (TCTA) applied to the FTCA statute
of limitations was argued in district court (ROA.261,
para. 2) and briefed in appeals court by Petitioner and
argued again on rehearing. (Appendix B, footnote 2).

2 Bulging: full, stuffed, full to bursting, fit to burst. Online
English Thesaurus: 2019.

9

REASONS FOR GRANTING THE WRIT
A. THE FIFTH CIRCUIT COURT OF APPEALS HAS
DECIDED AN IMPORTANT FEDERAL QUESTION THAT
HAS NOT BEEN, BUT SHOULD BE, SETTLED BY THIS
COURT

The Fifth Circuit Court of Appeals affirmed the
ruling of the U.S. District Court for the Southern District's dismissing with prejudice Ms. Hale's FTCA
claims under Rule 12(b)(6); However, Defendant filed
motion under Rule 12(b)(1). The U.S. District Court
found the continuing tort doctrine does not change
accrual dates for FTCA claims even if Respondent
USA engaged in wrongful conduct after the injury:
"Plaintiff (Ms. Hale) invokes two doctrines
that allow for an extension of limitations
periods in certain cases. First, she argues for
application of the continuing tort doctrine,
arguing that Defendants' repetitive wrongful
acts toll the limitations period. See Plaintiffs
Motion, at 5 (claim 'does not accrue until the
tortious conduct ceases'). The Fifth Circuit
has not decided squarely whether the
continuing doctrine applies to FTCA claims.
FEMA Trailer, 646 F.3d at 191. Nevertheless, even if the doctrine were applicable, it
would not provide a basis for expansion of the
limitations period because "claim accrual
under the FTCA is based upon awareness of
the injury, not when the alleged wrongful
conduct ends. Id. As stated above, Plaintiff

10

was aware of her injury on March 18, 2014.
Therefore, even assuming Plaintiff could
prove that the Government has engaged in
wrongful conduct since her injury, the
continuing tort doctrine does not change the
accrual date for her claims arising from the
March 18, 2014, x-ray."
Texas courts have applied the continuing torts
doctrine in cases of temporary nuisance, trespass,
conversion, intentional infliction of emotional distress,
and false imprisonment. See, e.g., Zurita v. Lombana,
322 S.W.3d 463 (Tex. App.—Houston [14th Dist.] 2010,
pet. denied) (intentional infliction of emotional distress);
Plough v. Reynolds, No. 13-03-741-CV, 2006 WL 328120
(Tex. App.—Corpus Christi-Edinburg 2006, no pet.)
(temporary nuisance, trespass, and conversion); Adler
v. Beverly Hills Hosp., 594 S.W.2d 153 (Tex. App.Dallas 1980, no writ) (false imprisonment). The doctrine
does not apply to cases of permanent injury to land.
Markwardt, 325 S.W.3d at 893. No Texas case law
exists applying the continuing tort doctrine to accrual
and discovery dates of injury under the FTCA excepting
the present case. Ms. Hale submitted an administrative claim on Standard Form 95 dated June 6, 2016
(ROA.150) that was received a month later on July 6,
2016 and denied on January 11, 2017. (ROA.106). Ms.
Hale filed suit January 19, 2017. (ROA.16). Ms. Hale
amended her original complaint June 29, 2017 after
Edward Boulay appeared April 11, 2017 via sworn
statement (ROA.102) verifying he used• the sandbags
that injured Ms. Hale. (ROA.217-30). The district
court substituted the United States as defendant four
months later, on August 18, 2017. Administrative
claims are not required before filing counterclaims and

11

cross-claims Fed. R. Civ. P. Rule 8 & 13; nor when filing
third-party actions Rule 14, 28 U.S.C. § 2675(a). A.L.
T. Corp. v. Small Business Admin., 801 F.2d. 1451,
1454-62 (5th Cir. 1986).
The requirement that a claimant must present an
administrative claim and receive a denial or wait for
six months to pass before filing suit only applies when
suit is filed against the United States. The administrative claim requirements of 28 U.S.C. § 2675(a) and
time limitations of 28 U.S.C. § 2401(b) do not apply
when commenced directly against government employees for actions taken within their scope of office or employment (ROA.217). Once the United States is substituted, if the suit is dismissed for failure to file an administrative claim, the claimant will have 60 days after
dismissal to present an administrative claim.
Thereafter, the claim will be considered timely as if it
had been presented on the date of the civil action. 28
U.S.C. § 2679(d)(5). Ms. Hale filed another administrative claim naming Edward Boulay on August 23,
2017 (ROA.664-66); therefore both FTCA claims were
timely under the Texas Continuing Tort Doctrine and
the Federal Tort Claims Act.
In Texas, negligence claims must be brought within
two years of the date that the cause of action accrues.
Tex. Civ. Prac. & Rem. Code § 16.003(a). Accrual occurs
when "'a wrongful act causes some legal injury, even
if the fact of injury is not discovered until later, and
even if all resulting damages have not yet occurred."'
TIG Ins. Co. v. Aon Re, Inc., 521 F.3d 351, 355 (5th
Cir. 2008) (quoting S. V. v. R. V, 933 S.W.2d 1, 4 (Tex.
1996)). An exception to the statute of limitations in
Texas is the continuing torts doctrine. McFarland v.

12

Grounds, No. 12-50881, 2013 WL 657767, at *1 (5th
Cir. Feb. 22, 2013).
A continuing tort occurs when "the wrongful
conduct continues to effect additional injury to the
plaintiff until that conduct stops." Gen. Universal
Sys., Inc. v. HAL, Inc., 500 F.3d 444, 451 (5th Cir. 2007)
(citing Upjohn Co. v. Freeman, 885 S.W.2d 538, 542
(Tex. App.—Dallas 1994, writ denied)). The Texas
Supreme Court has not endorsed or addressed this
doctrine, though state courts have recognized it as
tolling limitations "until the last act of intentional
infliction occurs." Creditwatch, Inc. v. Jackson, 157
S.W.3d 814, 816 n.8 (Tex. 2005) (not reaching the lower
court's application of the continuing tort doctrine, and
generally noting that it had yet to consider the
doctrine). The doctrine is "rooted in a plaintiff's inability
to know ongoing conduct is causing her injury; thus,
the rationale for the doctrine no longer applies if the
claimant has discovered her injury and its cause and
the statute [of limitations] commences to run upon
discovery." Markwardt v. Tex. Indus., Inc., 325 S.W.3d
876, 894 (Tex. App.—Houston [14th Dist.] 2010, no
pet.).
Muscle and tendon strains from the sandbags
were confirmed on September 15, 2014, which places
Ms. Hale within the two year statutory time limit. Ms.
Hale is not a licensed physician and cannot self-diagnose. Nor can Ms. Hale change a physician diagnosis
or substitute it for her own diagnosis. This same physician diagnosis was changed multiple times by other
physicians until the true injuries were of bilateral torn
rotator cuffs were confirmed by ultrasounds on
02/10/2015 and 05/03/2015.

13

B.

THE DECISION BELOW CONFLICTS AND UNDERMINES
THE LEGITIMACY, RELIABILITY AND STABILITY OF
JUDICIAL PROCESSES AND HAS SO FAR DEPARTED
FROM THE ACCEPTED AND USUAL COURSE OF
JUDICIAL PROCEEDINGS, AND SANCTIONED SUCH A
DEPARTURE BY A LOWER COURT, AS TO CALL FOR AN
EXERCISE OF THIS COURT'S SUPERVISORY POWER

In essence, the courts ruled Ms. Hale's lay selfdiagnosis is equal to a physician, yet all these physicians were merely making educated guesses until the
injuries were visibly identified thru radiological
images, which proved all of them wrong and precludes
Fed. R. Civ. Proc. 12(b)(6) dismissal with prejudice.
The purpose of Rule 12 is to give notice, not decide the
entire case on educated guesses. Conley v. Gibson, 355
U.S. 41 (1957). Even if the purpose of Rule 12(b)(6) is
to screen evidence, there is no rule of evidence or court
or statute that precludes Ms. Hale designating herself
as a nurse with expert knowledge of medical records
and pointing straight to the radiological and medical
record evidence. The district court demanded a physician do this same thing, even though the records speak
for themselves and on their face is all the evidence required to prove Ms. Hale's case has merit and prove
the negligence of Respondent USA. The Fifth Circuit
Court of Appeals, in violation of Ms. Hale's 14th
Amend. right to due process and equal protection of
the law, separated Edward Boulay, Rebecca Bowles and
their claims and kept them from appellate review and
their mandate is void. Respondent's answer to the
amended complaint was more than 90 days late, which
deprives the Courts of all jurisdiction to rule on
Respondent's motion to dismiss.

14

CONCLUSION
The claims against Respondent USA rest upon
negligence, not medical malpractice. The threshold
question is whether the causes of action in the complaint qualify as a health care liability claim governed
by the Texas Medical Liability Act and if so, the
continuing tort doctrine applies and the statute of limitations is tolled for a series of wrongful acts that
precluded discovery of bilateral torn rotator cuffs from
the sandbag x-ray. The courts ruled only a physician
can point to radiological evidence in the record, when
the record speaks for itself. The proper objection
should have been the authenticity of the record,
instead of who points to them. Edward Boulay admits
use of sandbags and Ms. Hale proved she was injured
by them and submitted a second administrative claim
that replaced the prior administrative claim per
statute. Edward Boulay is not a healthcare provider
under Texas statute and no expert was needed and
Respondent USA's vicarious negligence resulted in
Ms. Hale's bilateral torn rotator cuffs and resulting
spinal disabilities. Also, Respondent USA's answer to
Ms. Hale's amended complaint was more than 90 days
and statute only allows 14 days. This is not a harmless
error when an entire case depends upon it. The courts'
misapplication of rules and statutes undermine the
legitimacy, reliability and stability of judicial processes
and has so far departed from the accepted and usual
course of judicial proceedings, to call for an exercise of
this Court's supervision.

15

Respectfully submitted,
SANDRA G. HALE
PETITIONER PRO SE
2318 AUTUMN SPRINGS LANE
SPRING, TX 77373
(281) 203-8752
SANDRAINDAYTON@YAHOO.COM
OCTOBER 28, 2019

